 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Balance Billing for Medical Equipment and
                  Supplies




                       JANUARY 2001
                       OEI-07-99-00510
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City office prepared this report under the direction of Brian T. Pattison, Deputy
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Tricia Fields, Project Leader
                       Stuart Wright, Director, Medicare and 

Michael Craig, Program Analyst
                      Medicaid Branch

Zula Crutchfield, Program Analyst
                   Barbara Tedesco, Mathematical Statistician

Joe Penkrot, Team Leader
                            Scott Horning, Program Analyst

Elander Phillips, Program Inspections Assistant

Marco Villagrana, Program Analyst

Deborah Walden, Team Leader





  To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei/
                       EXECUTIVE                        SUMMARY

PURPOSE
        To determine the effects and level of Medicare beneficiary awareness of balance billing for
        durable medical equipment and supplies.

BACKGROUND
         Part B of the Medicare program covers outpatient services and items, including durable
         medical equipment, prosthetics, orthotics, and supplies (DMEPOS). Under Medicare Part
         B, physicians and suppliers submit both assigned and non-assigned claims for these
         services and items. For assigned claims, physicians and suppliers agree to accept the
         amount allowed by Medicare as full payment. Medicare pays 80 percent of this amount
         directly to the physician or supplier and the beneficiary pays 20 percent (plus any
         outstanding deductible). In non-assigned claims, the physician or supplier bills the
         beneficiary for the total charge for the service or item provided, which can exceed the
         amount allowed by Medicare. Medicare pays the beneficiary 80 percent of the allowed
         amount; the beneficiary pays all remaining charges. We define balance billing as the
         portion of the charge in excess of the Medicare allowed amount.

         Participating physicians and suppliers may voluntarily enter into an agreement to submit
         assigned claims for all services and items provided to Medicare beneficiaries.
         Non-participating physicians and suppliers may submit assigned or non-assigned claims on
         a case-by-case basis. Physicians may not balance bill in excess of 115 percent of the
         allowed physician fee schedule amount. However, no such limitations exist on balance
         billing by suppliers.

         We reviewed a random sample of non-participating suppliers and non-assigned claims.
         We conducted telephone surveys with beneficiaries and mail surveys with suppliers. We
         asked beneficiaries questions about selecting their supplier, awareness of the difference
         between assigned and non-assigned claims and participating and non-participating
         suppliers, and if they compared prices and services among suppliers. Questions we asked
         suppliers include reasons they choose not to be a participating Medicare supplier and
         factors that determine whether to accept assignment.

FINDINGS
Beneficiaries Paid $41 Million Above the Medicare Allowed Amounts for Medical
Equipment and Supplies

         As stated above, there is no limitation on balance billing by suppliers as there is for
         physicians. Medicare beneficiaries faced balance billing liabilities of approximately


Balance Billing for DMEPOS                          i                                 OEI-07-99-00510
         $41 million, $30 million of which was above 115 percent of the Medicare allowed
         amounts (the limit that applies to physicians), from nearly 3 million non-assigned
         DMEPOS claims submitted in 1999. These claims comprise 5 percent of the number and
         3 percent of the dollar amount of medical equipment and supply claims overall. Medicare
         beneficiaries with recurring (as opposed to one-time) needs were responsible for roughly
         twice the costs on non-assigned claims than those with assigned claims. For these
         beneficiaries, medical equipment and supplies are recurring expenses which may be
         incurred for the remainder of their lives. For non-assigned claims, suppliers usually
         require Medicare beneficiaries to pay upon delivery. One-third of surveyed beneficiaries
         do not have supplemental insurance that might pay for some portion of out-of-pocket
         expenses for these items.

Most Surveyed Beneficiaries Are Unaware of Differences in Assigned and
Non-assigned Claims and Participating and Non-participating Suppliers

         Only two out of every five beneficiaries know that if they choose a participating supplier
         or a supplier that accepts assignment on a particular item, they pay only the outstanding
         deductible and 20 percent co-insurance. Few beneficiaries select their DMEPOS supplier
         based on cost considerations.

Sixty-two Percent of Suppliers Are Not Participating Medicare Suppliers

         More than half of the suppliers surveyed state that low reimbursement is a reason they
         choose not to be a participating Medicare supplier. Furthermore, 42 of these
         100 suppliers also state that reimbursement levels are below cost on certain supplies.

         Ostomy supplies were specifically identified by surveyed suppliers as a category of items
         with low or below cost reimbursement. Based on a review of 1999 claims data, we found
         that ostomy supplies have a higher non-assigned rate than supplies overall.

RECOMMENDATIONS

In order to increase beneficiary access to participating suppliers and reduce financial liability for
DMEPOS, we make the following recommendations to HCFA.

Educate Beneficiaries on Ways to Reduce Financial Liability

         We recommend that HCFA educate beneficiaries on the options and consequences of
         assigned and non-assigned claims and purchasing medical equipment and supplies from
         participating and non-participating suppliers. We suggest, for example, that HCFA direct
         the durable medical equipment regional carriers (DMERCs) to send an annual notice to
         Medicare beneficiaries for whom a non-assigned claim was submitted containing an
         explanation of assigned and non-assigned claims, participating and non-participating
         suppliers, and the availability of the Medicare Participating Suppliers Directory. Another
         suggestion is that HCFA direct the DMERCs to add a notation to the Medicare Summary
         Notice on non-assigned claims that the beneficiary may be able to reduce their financial

Balance Billing for DMEPOS                         ii                                 OEI-07-99-00510
         liability for medical equipment and suppliers by purchasing from a supplier that accepts
         assignment on the item.

Re-evaluate Medicare Fee Schedules for Ostomy Supplies

         We recommend that HCFA re-evaluate the Medicare fee schedules for ostomy supplies.
         After receiving survey responses from 15 suppliers stating that reimbursement is very low
         or below cost for ostomy supplies, we conducted an analysis of 1999 claims data for these
         supplies. We found that ostomy supplies have a higher rate of non-assignment than
         DMEPOS overall, and also have a high percentage of claims submitted in excess of
         115 percent of the allowed amount.

Other Considerations

         We offer to HCFA other suggestions that could help decrease beneficiary financial liability
         for medical equipment and supplies. However, these would require additional study and
         analysis. They include exploring ways of increasing the participation rate of suppliers,
         increasing beneficiary access to suppliers, and developing legislation to limit balance billing
         on medical equipment and supplies.

AGENCY COMMENTS

         HCFA concurred with our recommendations. HCFA stated that they have undertaken a
         number of efforts to increase beneficiary education and awareness about the consequences
         of assigned and non-assigned claims. HCFA also stated that the Participating Physician
         Directory is available online, and that directory will be expanded in 2001 to include
         supplier information.

         HCFA stated that it will continue to explore options to increase beneficiary awareness.
         We suggest that HCFA consider, as one of these options, a more direct approach to reach
         Medicare beneficiaries who purchase medical equipment and supplies from
         non-participating suppliers that submit non-assigned claims, such as an annual notice
         and/or a notation on the Medicare Summary Notice for a non-assigned claim.

         HCFA stated that it is committed to examining the payment for ostomy supplies once it
         has published a final rule concerning its inherent reasonableness authority. We note that
         HCFA could evaluate the appropriateness of the fee schedules while waiting for the
         issuance of the final rule.




Balance Billing for DMEPOS                         iii                                OEI-07-99-00510
                             TABLE                    OF           CONTENTS

                                                                                                                    PAGE


         EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


         INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


         FINDINGS


                  Beneficiaries Paid $41 Million in Balance Billing . . . . . . . . . . . . . . . . . . . . . . . . 6


                  Beneficiaries Unaware of the Differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                  Majority of Suppliers Are Not Participating . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         APPENDICES


                  A: Confidence Intervals for Key Estimates . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                  B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





Balance Billing for DMEPOS                                   1                                         OEI-07-99-00510
                              INTRODUCTION

PURPOSE

         To determine the effects and level of Medicare beneficiary awareness of balance billing for
         durable medical equipment and supplies.

BACKGROUND

         Part B of the Medicare program covers outpatient services and items, including durable
         medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS include
         medical equipment and supplies such as wheelchairs, hospital beds, catheters, ostomy and
         wound care supplies, and enteral and parenteral nutrition. In 1999, Medicare Part B paid
         an estimated $6.2 billion for medical equipment and supplies.

Suppliers

         Medicare only pays for DMEPOS that are prescribed or ordered by a physician. The
         Medicare beneficiary then selects a supplier from which to rent or purchase the item.
         Types of suppliers include: discount retail chains such as Wal-Mart, home medical
         equipment businesses and pharmacies, and mail order companies. Suppliers can be large
         corporations or small proprietorships. Some suppliers sell only medical equipment and
         supplies, while others sell a wide variety of merchandise of which DMEPOS comprise a
         small percentage of total sales for the retailer.

Assigned and Non-assigned Claims

         Under Medicare Part B, suppliers submit both assigned and non-assigned claims. For
         assigned claims, suppliers agree to accept the amount allowed by Medicare as full
         payment. Medicare pays 80 percent of this amount directly to the supplier and the
         beneficiary pays 20 percent plus any outstanding deductible. In non-assigned claims, the
         supplier bills the beneficiary for the total charge for the service or item provided, which
         can exceed the amount allowed by Medicare. In 1999, 5 percent of DMEPOS claims
         were submitted non-assigned, equating to approximately 3 million claims and allowed
         charges of $160 million. For these claims, Medicare pays the beneficiary 80 percent of the
         allowed amount, less any deductible not yet met. The beneficiary must pay the supplier
         directly the amount billed irrespective of the allowed amount. We define balance billing as
         the portion of the charge in excess of the Medicare allowed amount.

Durable Medical Equipment Regional Carriers

         In October 1993, the Health Care Financing Administration (HCFA) began processing
         Part B claims for medical equipment and supplies through four durable medical equipment
         regional carriers (DMERCs). Each DMERC processes durable medical

Balance Billing for DMEPOS                        2                                OEI-07-99-00510
         equipment claims for a specific geographic region and ensures that all coverage
         requirements for medical equipment and supplies are met before approving payment. Any
         HCFA directives to change payment processing for DMEPOS claims are implemented
         through the DMERCs.

Medicare Participation Program

         The Deficit Reduction Act of 1984 established a participating physician and supplier
         program for Medicare Part B, under which a physician or supplier may choose whether or
         not to become a “participating” Medicare physician or supplier on an annual basis.
         Participating physicians and suppliers voluntarily enter into an agreement to accept
         assignment for all services and items they provide to Medicare beneficiaries.
         Non-participating physicians and suppliers may submit assigned or non-assigned claims on
         a case-by-case basis, but must accept assignment whenever a Medicare beneficiary also
         has Medicaid coverage.

         Each DMERC publishes a Medicare Participating Suppliers Directory (MEDPARD)
         which lists the name, business address, and telephone number for each participating
         supplier in its region.

Limiting Charges and Balance Billing

         Currently, physicians who are non-participating Medicare physicians receive only
         95 percent of the Medicare allowed amount; however, they may bill up to 115 percent of
         this amount. This limit protects Medicare beneficiaries from excessive balance billing on
         non-assigned claims. As of January 1999, 85 percent of physicians billing Medicare were
         participating physicians.

         Suppliers are not subject to limits on balance billing for medical equipment and supplies.
         There are no limits on the amount suppliers can charge beneficiaries, nor is there a
         reduction in payments to non-participating suppliers.

Payment for Upgraded Equipment

         While Medicare will pay for items that are adequate and effective to meet the medical
         needs of the beneficiary, it will not pay extra for convenience or luxury features. For
         example, Medicare will pay for eyeglass frames, wheelchairs, and hospital beds which
         meet the medical needs of the beneficiary. However, Medicare will not pay for upgraded
         versions that cost in excess of Medicare allowed amounts for items such as premium
         eyeglass frames and total electric hospital beds.

         Currently, a participating Medicare supplier or a supplier that accepts assignment on the
         item must accept the allowed amount as full payment for the upgraded item. If a supplier
         wishes to charge and collect a greater price for upgraded DMEPOS, they must be a
         non-participating supplier and submit a non-assigned claim. Medicare then pays the
         beneficiary 80 percent of the allowed amount, less any outstanding deductible. The


Balance Billing for DMEPOS                        3                                 OEI-07-99-00510
         beneficiary is then responsible to the supplier for the full payment price of the upgraded

         item.


         On April 27, 2000, HCFA issued a proposed rule for comment regarding the payment

         procedure for upgraded equipment. The proposed rule would amend the Medicare

         regulations to permit suppliers to furnish upgrades while still submitting an assigned claim. 

         Medicare would pay the supplier the allowed amount for the standard item less

         20 percent co-insurance and any outstanding deductible, and the beneficiary would pay the

         difference between the supplier’s charge for the upgraded item and 80 percent of the

         allowed amount for the standard item.


METHODOLOGY

         To determine the effects and level of Medicare beneficiary awareness of balance billing,
         we reviewed non-participating suppliers and non-assigned claims. We selected a stratified
         random sample of 150 (plus 150 spares) non-assigned DMEPOS claims from a 1 percent
         sample of the Medicare Part B National Claims History file for the period September 1 -
         November 30, 1999. This gave us a sample of beneficiaries along with the suppliers that
         provided medical equipment or supplies to these beneficiaries.

         We contacted beneficiaries or their caregivers associated with 150 claims.1 As shown in
         the table on the following page, we chose 50 of the claims with the submitted amount
         between 101 and 115 percent of the allowed amount. The remaining 100 claims had the
         submitted amount in excess of 115 percent of the allowed amount. The 115 percent
         threshold was chosen because it is the limit in effect for physician services. We chose a
         larger sample size for claims submitted in excess of 115 percent of the allowed amount
         because these items were of greater interest in our study.




         1
           We used 23 spares in stratum 1 and 60 spares in stratum 2 to replace beneficiaries that did not respond
         after multiple attempts to contact them. We also replaced seven claims that were identified as assigned
         claims during the survey process.

Balance Billing for DMEPOS                               4                                      OEI-07-99-00510
                                               Universe of   Number of        Supplier-       Sample
                             Strata               Non-       claims in 1       Claim           Size
                                                assigned     percent file   Combinations
                                                 claims

          1. Claims for procedure codes for     601,090         1,198           100              50
          which the submitted amount is
          between 101% and 115% of the
          Medicare allowed amount

          2. Claims for procedure codes for    1,117,839        2,213           200              100
          which the submitted amount is in
          excess of 115% of the Medicare
          allowed amount


         Some beneficiaries had more than one claim in the sample. Therefore, we surveyed
         138 different beneficiaries or caregivers, representing 150 claims. We asked the
         beneficiaries and caregivers questions regarding the reasons they selected their supplier,
         their awareness of the difference between assigned and non-assigned claims and
         participating and non-participating suppliers, and whether they compared prices and
         services among suppliers. We also asked about the method of payment for their supply or
         equipment, how often they purchased it, and whether it was a recurring expense for the
         beneficiary.

         Out of 300 supplier-claim combinations, 27 claims were dropped for administrative
         reasons; for example, some claims were submitted by beneficiaries that received their
         DMEPOS from suppliers that do not possess a Medicare provider identification number
         (some beneficiaries choose to purchase from suppliers that do not have the capacity to bill
         Medicare directly). We surveyed the remaining sample of 273 supplier-claim
         combinations by mail and received 216 responses (79 percent) representing 176 unique
         suppliers. We asked questions on the type of equipment and supplies provided, the
         reasons the supplier chose not to be a participating Medicare supplier, and factors that
         determined whether to accept assignment on a particular claim. We also asked the
         suppliers to estimate the percentage of claims they bill non-assigned and requested copies
         of supplier billing and payment information for the sample of beneficiary claims to
         determine the amount balance billed to the beneficiary and the amount collected by the
         supplier.

         We systematically analyzed the survey responses from Medicare beneficiaries and medical
         equipment suppliers. We calculated confidence intervals for seven key estimates in the
         report. The point estimate and 95 percent confidence interval for each estimate are listed
         in Appendix A of this report.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Balance Billing for DMEPOS                        5                                   OEI-07-99-00510
                                          FINDINGS

Beneficiaries paid $41 million above the Medicare allowed
amounts for medical equipment and supplies
         Medicare beneficiaries experience greater financial liability on non-assigned claims than
         assigned claims because suppliers can bill more than the Medicare allowed amount on non-
         assigned claims. There is no limitation on balance billing by suppliers as there is for
         physicians. Projected from claims in the 1999 1 percent file, Medicare beneficiaries faced
         balance billing liabilities of approximately $41 million, $30 million of which was above 115
         percent of the Medicare allowed amounts (the limit that applies to physicians), from nearly
         3 million non-assigned DMEPOS claims. These claims comprise 5 percent of the number
         and 3 percent of the dollar amount of medical equipment and supply claims overall.

High volume, low cost items predominate

         We arrayed the non-assigned claims in the 1 percent file from highest to lowest frequency.
         The table below identifies the items comprising the top 50 percent of claims in terms of
         frequency along with the total and average amount suppliers balance billed for these items.
         Projected to the universe of non-assigned claims, the five items account for 22 percent of
         the total amount balance billed in 1999.

                                          Top 50 Percent of Claims Frequency
                                         Projected from the 1999 1 Percent File2

                       Item           HCFA        Number        Total Balance Billing        Average Balance
                                      Billing    of Claims                                   Billing per Claim
                                       Code

             Glucose testing strips   A4253       887,000            $3,152,708                     $3.55

             Bifocal lenses           V2203       154,400            $1,952,556                    $12.65

             Lancets                  A4259       148,900             $178,270                      $1.20

             Ostomy wafers            A5123       134,500             $735,852                      $5.47
             (protective skin
             barrier)

             Eyeglass frames          V2020       114,400            $3,137,511                    $27.43




         2
           The frequency and dollar projections are based on the billing codes submitted for the claims. Multiple
         HCFA billing codes exist for items similar to the above (e.g., additional billing codes exist for bifocal
         lenses).

Balance Billing for DMEPOS                               6                                      OEI-07-99-00510
Few claims have high balance billing

         We also arrayed the non-assigned DMEPOS claims based on highest average balance
         billing per claim. Projected to the universe of non-assigned claims, these 6,100 claims
         account for $4,919,524 in balance billing, or 12 percent of the total dollars balance billed
         for claims submitted in 1999. The table below identifies the items balance billed in excess
         of $500 in terms of frequency along with the total and average amount suppliers balance
         billed for these items.

                                          Claims Balance Billed in Excess of $500
                                          Projected from the 1999 1 Percent File

          Item                    HCFA Billing            Number of           Total Balance       Average Balance
                                     Code                  Claims                Billing            Billing per
                                                                                                      Claim

          Desferal injection,         J0895                   500                $995,120             $1,990.24
          (deferoxamine
          mesylate)

          Flolan injection,           J1325                   1,000              $172,440             $1,724.40
          (epoprostenol)

          Oxygen                      E1404                   600                $694,270             $1,157.12
          concentrator

          Above knee                  L5320                   100                $109,093             $1,090.93
          prosthetic

          Power operated              E1230                   1,800             $1,575,922             $875.51
          vehicle

          Prosthetic eye              V2623                   1,000              $804,621              $804.62

          Infusion pump for           K0455                   100                $67,253               $672.53
          epoprostenol

          Motorized                    K0011                 1,000               $500,805                $500.81
          wheelchair with
          programmable
          controls
         Note: This table, like the previous one, is based on a simple projection of the 1 percent file. Some
         estimates are based on a very small number of claims.

Sampled claims reflect the universe

         Our sample is reflective of the universe of DMEPOS claims with balance billing. Over
         one-half of our claims have balance billing amounts under $10. The table on the next page
         shows the amount of balance billing per claim for the 150 claims in our sample.




Balance Billing for DMEPOS                                7                                       OEI-07-99-00510
                Amount of Balance Billing per Claim       Number of Claims in    Distribution of Claims
                                                               Sample

                                 less than $5                      60                     40%

                             between $5 and $10                    25                     17%

                             between $10 and $20                   34                     23%

                             between $20 and $50                   20                     13%

                         between $50 and $100                      6                      4%

                         between $100 and $200                     4                      3%

                              greater than $300                    1                  less than 1%

                                    Total                         150                    100%


Most non-assigned claims are for recurring needs

         In our survey, we asked beneficiaries to identify the claim(s) as either a one-time or

         recurring expense. We found that 84 percent of non-assigned claims are for recurring

         needs. Beneficiaries for 35 percent of these recurring non-assigned claims report ordering

         the item monthly or more frequently. Examples of these items include ostomy supplies

         and diabetic testing supplies. For these beneficiaries, these supplies are recurring

         expenses which may be incurred for the remainder of their lives.


         Medicare beneficiaries with recurring needs are responsible for roughly twice the costs on

         non-assigned DMEPOS claims than the beneficiaries with assigned claims. The average

         financial liability per claim for non-assigned recurring claims is $16.73. If these claims had

         been assigned, the beneficiaries would have had an average of $8.50 financial liability. At

         a minimum, this amounts to $98.73 more per year financial liability per claim for these

         beneficiaries. Each beneficiary, on average, had responsibility for 

         39 percent of the allowed amount per claim, as opposed to 20 percent liability (plus any

         outstanding deductible) on the allowed amount for an assigned claim.


         Examples of items for the remaining 16 percent of non-assigned claims that beneficiaries

         identified as a one-time expense include eyeglass frames and lenses, breast prostheses, and

         walkers. While we did not ask the beneficiaries whether or not they considered these

         items to be “upgraded,” eyeglass frames and lenses and ambulatory aids such as walkers

         have the potential to include convenience or luxury features.


Suppliers expect immediate payment from Medicare beneficiaries

         Beneficiaries experience a lag time in reimbursement from Medicare and supplemental
         insurance companies for non-assigned claims. However, for non-assigned claims,
         suppliers commonly require Medicare beneficiaries to pay for DMEPOS upon delivery.
         The beneficiary then awaits reimbursement from Medicare and any supplemental



Balance Billing for DMEPOS                            8                               OEI-07-99-00510
         insurance companies. One-third of surveyed beneficiaries report that they do not have
         supplemental insurance that might pay some portion of out-of-pocket expenses
         (e.g., co-insurance and deductible) for DMEPOS.


Most surveyed beneficiaries are unaware of differences in
assigned and non-assigned claims and participating and
non-participating suppliers

         Because Medicare beneficiaries are unaware of the differences in assigned and
         non-assigned claims and participating and non-participating suppliers, they may not
         understand the financial consequences of their decisions. Only 44 percent of beneficiaries
         we surveyed know there are differences in financial liability between assigned and non-
         assigned claims. Only 41 percent know that if they choose a participating supplier or a
         supplier that accepts assignment on a particular item, they pay only 20 percent co­
         insurance, plus any outstanding deductible. At the conclusion of our telephone surveys,
         some beneficiaries remarked that they had never thought about the potential to save
         money by purchasing from a participating supplier or one that accepts assignment on the
         item.

Few beneficiaries select their DMEPOS supplier based on cost considerations

         Medicare beneficiaries may be able to limit their financial liability by comparing prices

         among suppliers. Less than one-third of the surveyed beneficiaries compare prices and

         services among suppliers before purchasing supplies or equipment. Forty-four percent of

         the beneficiaries (61 of 138) state that the close proximity of the supplier to their residence

         was a factor in their decision to select a supplier. Forty-one percent 

         (57 of 138) conducted business with the supplier in the past and chose to select that

         supplier again for the sampled claim. Also, 14 percent (20 of 138) of the surveyed

         beneficiaries state that they chose their supplier because it was the only supplier in their

         area which provided the particular item. Some beneficiaries also said they chose their

         supplier based on a recommendation of medical personnel.




Sixty-two percent of suppliers are not participating Medicare
suppliers
         According to the Statistical Analysis Durable Medical Equipment Regional Carrier, which

         compiles and analyzes national claims history data for equipment and supplies, 

         62 percent of suppliers were not participating Medicare suppliers for claims submitted

         with dates of service in 1999. These non-participating suppliers submitted 66 percent of

         DMEPOS claims, although only 5 percent of all claims were non-assigned. The rate of

         non-participation has increased each year since 1996 when 55 percent of suppliers did not



Balance Billing for DMEPOS                          9                                 OEI-07-99-00510
         participate. We found no particular concentration of non-participating Medicare suppliers
         in a geographic area.

Surveyed suppliers cite low reimbursement as a reason for non-participation

         Fifty-seven percent (100 of 176) of the suppliers surveyed (i.e., suppliers that submitted at
         least one non-assigned claim during the sample period) state that low reimbursement is a
         reason they choose not to be a participating Medicare supplier. Of these 100 suppliers 42
         also state that reimbursement levels are below cost on certain supplies (we did not
         independently verify suppliers’ responses and, therefore, cannot attest to whether
         reimbursement is indeed below cost). When projected to the universe of non-assigned
         claims, 56 percent of non-assigned claims are linked to suppliers who report that low
         reimbursement is a reason to not become a Medicare participating supplier. Other reasons
         cited by suppliers include difficult bookkeeping or inadequate staffing for collections from
         beneficiaries and time lags in receiving reimbursement from Medicare and supplemental
         insurance companies. Some suppliers also state that beneficiaries desire additional
         quantities or premium products not approved by Medicare.

         As stated previously, we reviewed non-participating suppliers and non-assigned claims.
         Sixty-one percent of surveyed suppliers estimate that they bill non-assigned on at least half
         of their Medicare claims. Twenty-seven percent bill non-assigned on every Medicare
         claim. When projected to the universe of non-assigned claims, 57 percent of claims are
         submitted by suppliers that bill non-assigned on at least half of their Medicare claims. One
         explanation for the rate of non-assignment being so high for some suppliers may be that
         the nature of business for large discount retail chains is payment at the time of sale rather
         than awaiting future reimbursement.

Claims for ostomy supplies have a higher non-assigned rate than supplies overall

         As noted earlier, 5 percent of all claims were submitted non-assigned in 1999. In contrast,
         for the ostomy supplies group, 29 percent of Medicare claims were submitted non-
         assigned. Of the 5 percent of claims submitted as non-assigned, 38 percent have the
         submitted amount in excess of 115 percent of the allowed amount. Ostomy supplies have
         61 percent of claims with the submitted amount in excess of 115 percent of the allowed
         amount, although they account for only approximately 20 percent of non-assigned
         DMEPOS claims.

         In our mail survey, we asked suppliers to list the factors that determine whether to bill a
         particular item assigned or non-assigned. Fifteen suppliers specifically volunteered that
         ostomy supplies reimbursement is either low or below cost. One supplier provided an
         example of low reimbursement on ostomy pouches shown on the following page.




Balance Billing for DMEPOS                        10                                 OEI-07-99-00510
          HCPCS A5063
          Manufacturer’s Suggested Retail Price          $27.40

          Medicare allowed amount                         $21.30
          Less: Cost of supply from distributor           $20.18
                   Overhead and claim processing          $ 5.25
          Loss to supplier                              - $ 4.13




         In this case, the supplier submitted a non-assigned claim and charged the beneficiary
         $27.40.




Balance Billing for DMEPOS                         11                              OEI-07-99-00510
                             RECOMMENDATIONS

         Medicare beneficiaries incur financial liability for durable medical equipment and supplies.
         Many beneficiaries also purchase items on a recurring basis that may be used for the
         remainder of their lives. In some cases, the financial liability may be a hindrance to
         beneficiaries receiving medical equipment and supplies they need. The majority of
         surveyed beneficiaries are not aware of the differences between assigned and
         non-assigned claims and participating and non-participating suppliers. Having such an
         understanding may increase beneficiary access to participating Medicare suppliers and
         decrease their financial liability. As such, we make the following recommendations to
         HCFA.



Educate beneficiaries on ways to reduce financial liability

         Medicare beneficiaries can decrease their financial liability for medical equipment and
         supplies by purchasing from a participating supplier or a supplier that accepts assignment
         on a particular item. We recommend that HCFA educate beneficiaries on the options and
         consequences of assigned and non-assigned claims and purchasing medical equipment and
         supplies from participating and non-participating suppliers. We suggest, for example, that
         HCFA direct the DMERCs to send an annual notice to Medicare beneficiaries for whom a
         non-assigned claim was submitted containing an explanation of assigned and non-assigned
         claims, participating and non-participating suppliers, and the availability of the Medicare
         Participating Suppliers Directory. Another suggestion is that HCFA direct the DMERCs
         to add a notation to the Medicare Summary Notice on
         non-assigned claims that the beneficiary may be able to reduce their financial liability for
         medical equipment and supplies by purchasing from a supplier that accepts assignment on
         the item.



Re-evaluate Medicare fee schedules for ostomy supplies

         After receiving survey responses from fifteen suppliers stating that reimbursement is very
         low or below cost for ostomy supplies, we conducted an analysis of 1999 claims data for
         these supplies. We found that ostomy supplies have a higher rate of non-assignment than
         DMEPOS overall, and also have a high percentage of claims submitted in excess of
         115 percent of the allowed amount. We understand that HCFA is committed to
         examining the payment for ostomy supplies once it has published a final rule concerning its
         inherent reasonableness authority. We note that HCFA could evaluate the appropriateness
         of the fee schedules while waiting for the issuance of the final rule.




Balance Billing for DMEPOS                        12                                OEI-07-99-00510
Other Considerations

         In addition to the above recommendations, HCFA may want to consider ways to increase
         the participation rate of suppliers, increase beneficiary access to suppliers, and limit
         excessive balance billing to help decrease beneficiary financial liability for medical
         equipment and supplies. We recognize these are complex problems, and may require
         additional study and analysis.

         In 1999, 85 percent of physicians billing Medicare were participating physicians. This
         percentage has gradually increased since 1996. In contrast, only 38 percent of suppliers
         participated in 1999, with a trend of decreasing participation since 1996. As stated earlier,
         non-participating suppliers submitting non-assigned claims commonly require beneficiaries
         to pay for medical equipment and supplies upon delivery. Beneficiaries then experience a
         lag time in reimbursement from Medicare and supplemental insurance companies.
         Purchasing from a participating supplier alleviates the lag time, because the supplier bills
         the beneficiary only the outstanding deductible and 20 percent co-insurance. Then the
         supplier awaits reimbursement from Medicare and supplemental insurance companies.

         We note that, currently, non-participating physicians receive 95 percent of the Medicare
         allowed fee schedule amount. Implementing a 5 percent reduction in payments to
         non-participating suppliers could provide some incentive for suppliers to participate. This
         would require passage of legislation.

         As previously noted, some surveyed beneficiaries state that they chose their supplier
         because it was the only supplier in their area which provided the particular item. In order
         to improve beneficiary access to participating suppliers, HCFA could explore ways to
         increase access to other suppliers (e.g., suppliers which accept mail order).

         Another seemingly logical option for decreasing beneficiary financial liability for medical
         equipment and supplies might be to develop legislation to institute limiting charges on
         them. Since January 1, 1993, charges for physician services have been limited to
         115 percent of the Medicare allowed amount. This limit protects beneficiaries from
         excessive balance billing on non-assigned claims. We recognize that while on the surface
         such legislation for medical equipment and supplies could be beneficial, there may be
         potential negative outcomes (e.g., beneficiaries may not be able to purchase upgraded
         items, or suppliers may choose not to offer items on which they lose money).




Balance Billing for DMEPOS                        13                                OEI-07-99-00510
Agency Comments
         HCFA provided written comments to this report, the full text of which are included in
         Appendix B. HCFA concurred with our recommendations.

         Educate beneficiaries on ways to reduce financial liability--HCFA agreed that
         educating beneficiaries is of utmost importance. HCFA stated that it has undertaken a
         number of efforts to increase beneficiary education and awareness of assigned and non-
         assigned claims, such as:

             < publishing a pamphlet entitled, “Does your doctor or supplier accept assignment?”,
             <	 discussing the importance of acceptance of assignment by doctors and suppliers as it
                relates to cost savings in several pages of the booklet entitled “Medicare & You
                2001”, and
             <	 posting an online Participating Physician Directory containing the names, addresses,
                and specialities of Medicare participating physicians who have agreed to accept
                assignment.

         HCFA stated that the directory will be expanded in 2001 to include supplier information,
         and that they will continue to explore options to increase beneficiary awareness. We
         suggest that HCFA consider, as one of these options, a more direct approach to reach
         Medicare beneficiaries who purchase medical equipment and supplies from
         non-participating suppliers that submit non-assigned claims, such as an annual notice
         and/or a notation on the Medicare Summary Notice for a non-assigned claim.

         Re-evaluate Medicare fee schedules for ostomy supplies--HCFA stated that it is
         committed to examining the payment for ostomy supplies once it has published a final rule
         concerning its inherent reasonableness authority. We note that HCFA could evaluate the
         appropriateness of the fee schedules while waiting for the issuance of the final rule.




Balance Billing for DMEPOS                        14                               OEI-07-99-00510
                                                                                APPENDIX A


                      Confidence Intervals for Key Estimates

         We calculated confidence intervals for seven key estimates. The point estimate and
         95 percent confidence interval are given for each of the following:

                  Key Estimate                              Point Estimate   Confidence Interval
 Claims linked to suppliers who report low                       56%                +/-7%
 reimbursement is a reason not to become a
 Medicare participating supplier

 Claims submitted by suppliers that bill                         57%                +/-7%
 non-assigned on at least half of their Medicare
 claims

 Claims submitted for beneficiaries who state the                84%                +/-6%
 DMEPOS are recurring expenses which will be
 incurred for the remainder of their lives

 Recurring expense claims for which                              35%                +/-8%
 beneficiaries report ordering monthly or more
 frequently

 Mean financial liability to beneficiary for claims             $16.73             +/-$3.72
 recurring monthly or more frequently

 Mean financial liability to beneficiary for claims             $8.50              +/-$2.25
 recurring monthly or more frequently, if
 assigned

 Yearly per claim financial liability to beneficiary            $98.73             +/-$23.11
 for claims recurring monthly or more frequently




Balance Billing for DMEPOS                             15                         OEI-07-99-00510
                                                                           APPENDIX B


                                Agency Comments

In this appendix, we present comments from the Health Care Financing Administration.




Balance Billing for DMEPOS                    16                              OEI-07-99-00510
Balance Billing for DMEPOS   17   OEI-07-99-00510
Balance Billing for DMEPOS   18   OEI-07-99-00510
